No. 20-222

 

 

IN THE

Supreme Court of the Anited States

GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS
v.

ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.

ON WRIT OF CERTIORARI TO THE
UNITED STATES OF APPEALS FOR THE SECOND CIRCUIT

BRIEF OF AMERICAN INTERNATIONAL GROUP, INC.
AND CHUBB OVERSEAS GENERAL AS AMICI CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3843 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 1, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
